CERTIFICATE OF COMPLIANCE
Case No. 19-309
Caption: Governor of Delaware v. Adams
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 5,904 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2, 2019.

Record Press, Inc.

Sworn to before me on
October 2, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 0lOS6101366
Qualified in Kings County
~ - ·"-!ires November 10, 2023

